<html>
<title> - MOTOR CARRIER SAFETY: THE FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION'S OVERSIGHT OF HIGH-RISK CARRIERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
MOTOR CARRIER SAFETY: THE FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION'S 
                    OVERSIGHT OF HIGH-RISK CARRIERS

=======================================================================


                                (110-57)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                     U.S. GOVERNMENT PRINTING OFFICE

36-688 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

?

            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    RICHARD H. BAKER, Louisiana
JULIA CARSON, Indiana                GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A ARCURI, New York           JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY MCNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
DORIS O. MATSUI, California          JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
ZACHARY T. SPACE, Ohio               THELMA D. DRAKE, Virginia
BRUCE L. BRALEY, Iowa                MARY FALLIN, Oklahoma
HARRY E. MITCHELL, Arizona           VERN BUCHANAN, Florida
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Fleming, Susan A., Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office, Washington, D.C..............     2
Hersman, Hon. Deborah A.P., Member, National Transportation 
  Safety Board, Washington, D.C..................................     2
Hill, Hon. John H., Administrator Federal Motor Carrier Safety 
  Administration, Washington, D.C................................     2
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation, Washington, D.C.............................     2
Urquhart, Captain Ken, Commercial Vehicle Enforcement, Minnesota 
  State Patrol, Mendota Heights, Minnesota.......................     2
Vaughn, Chief Steve, Enforcement Services Division, California 
  Highway Patrol, Sacramento, California.........................     2

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    31
Mitchell, Hon. Harry E., of Arizona..............................    32

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Fleming, Susan A.................................................    36
Hersman, Deborah A. P............................................    57
Hill, John H.....................................................    73
Scovel, III, Calvin L............................................    96
Urquhart, Captain Ken............................................   109
Vaughn, Chief Steve..............................................   124

                       SUBMISSIONS FOR THE RECORD

Hill, Hon. John H., Administrator Federal Motor Carrier Safety 
  Administration, Washington, D.C.:

  Responses to questions from Rep. Buchanan......................    84
  Responses to questions from Rep. Carney........................    85
  Responses to questions from Rep. DeFazio.......................    87
  Responses to questions from Rep. Napolitano....................    93
Vaughn, Chief Steve, Enforcement Services Division, California 
  Highway Patrol, Sacramento, California, responses to questions 
  from Rep. DeFazio..............................................   136

                        ADDITIONS TO THE RECORD

The American Trucking Associations, written statement............   138
[GRAPHIC] [TIFF OMITTED] 36688.001

[GRAPHIC] [TIFF OMITTED] 36688.002

[GRAPHIC] [TIFF OMITTED] 36688.003

[GRAPHIC] [TIFF OMITTED] 36688.004

[GRAPHIC] [TIFF OMITTED] 36688.005

[GRAPHIC] [TIFF OMITTED] 36688.006

[GRAPHIC] [TIFF OMITTED] 36688.007

[GRAPHIC] [TIFF OMITTED] 36688.008



   HEARING ON MOTOR CARRIER SAFETY: THE FEDERAL MOTOR CARRIER SAFETY 
            ADMINISTRATION'S OVERSIGHT OF HIGH-RISK CARRIERS

                              ----------                              


                        Wednesday, July 11, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Committee will come to order.
    Thank you all for being here.
    I will keep my opening remarks brief in the interest of 
hoping to hear from all of you at least initially before the 
votes, which inevitably interrupt all of these proceedings.
    When Congress created the Federal Motor Carrier Safety 
Administration in 1999, we had some pretty specific objectives 
in mind in terms of cutting the rate of accident fatality, and 
we have fallen short of those goals. I am holding this hearing 
in the hope of determining what we might do to move us along 
more expeditiously toward meeting those goals.
    There are a number of concerns that I will express later in 
the hearing, particularly in questioning, but witnesses may 
want to anticipate and address those a bit. One thing that 
concerns me a lot is when we actually physically do roadside 
inspections, which is a very small minority of the operations 
on an annual basis, we find pretty consistently that we are 
taking about a quarter of the trucks out of service. That 
causes me a lot of concern: how might we better address that?
    Then I have other concerns about FMCSA's rating system and 
when and how they determine someone to be unsatisfactory and 
what remedies are taken after that point, but we will get into 
that more later.
    With that, I would turn to the Ranking Member, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman, and thank you 
for calling this very important hearing on the Federal Motor 
Carrier Safety Administration's oversight of high-risk 
carriers.
    With 5,212 fatalities and 114,000 injuries related to 
trucks in 2005, truck safety is an area which should remain a 
top priority for our Subcommittee and for this Congress. 
Overall, moving goods by trucks on our Nation's highways is 
very safe. In 2005, trucks traveled more 220 billion miles and 
transported more than 10 billion tons of goods to people all 
over the Country. In fact, 84 percent of all the goods we use 
and consume get to us by truck. A strong trucking industry is 
essential to our economy and our daily life.
    Despite all the benefits we receive from trucks and from 
the trucking industry, work still needs to be done to improve 
truck safety. In 2005, there were 2.34 fatal crashes per 100 
million miles traveled by trucks. This rate has greatly 
improved over the years. The number of fatalities is still too 
high. It is important that we try to develop strategies to 
further reduce this rate.
    Today's hearing on the Government's targeting of high-risk 
carriers is very important. By targeting these high-risk 
companies, we have a chance to make the highways safer for 
everyone, not just drivers of passenger vehicles for truck 
drivers as well.
    I look forward to hearing from all of the witnesses to tell 
us how we can do a good job, make good work even better in this 
area.
    I yield back. Mr. Chairman, thank you.
    Mr. DeFazio. I thank the gentleman.
    With that, again in the interest of getting in your 
testimony, we will move right to the testimony from the 
witnesses, and we would first hear from Administrator Hill.
    Mr. Hill.

TESTIMONY OF THE HONORABLE JOHN H. HILL, ADMINISTRATOR FEDERAL 
  MOTOR CARRIER SAFETY ADMINISTRATION, WASHINGTON, D.C.; THE 
   HONORABLE CALVIN L. SCOVEL, III, INSPECTOR GENERAL, U.S. 
 DEPARTMENT OF TRANSPORTATION, WASHINGTON, D.C.; THE HONORABLE 
 DEBORAH A.P. HERSMAN, MEMBER, NATIONAL TRANSPORTATION SAFETY 
 BOARD, WASHINGTON, D.C.; SUSAN A. FLEMING, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
  WASHINGTON, D.C.; CHIEF STEVE VAUGHN, ENFORCEMENT SERVICES 
 DIVISION, CALIFORNIA HIGHWAY PATROL, SACRAMENTO, CALIFORNIA; 
CAPTAIN KEN URQUHART, COMMERCIAL VEHICLE ENFORCEMENT, MINNESOTA 
            STATE PATROL, MENDOTA HEIGHTS, MINNESOTA

    Mr. Hill. Good afternoon, Chairman DeFazio and Ranking 
Member Duncan and Members of the Subcommittee.
    I am pleased to describe how the Federal Motor Carrier 
Safety Administration is working to make the Nation's highways 
safer through better commercial vehicle safety operations, and 
I also want to commend the Subcommittee for choosing State 
MCSAP agencies to testify today. Improving CMV safety without 
their strong involvement would not be possible.
    2005 had one of the lowest truck fatality rates in 30 
years. This means that despite more trucks traveling more 
miles, the proportion of fatalities is down. In addition, 
preliminary numbers for 2006 indicate the number of people 
killed in large truck related crashes decreased by an estimated 
3.7 percent. However, we know that despite these gains, the 
drop in overall highway deaths involving commercial vehicles 
has still been too high.
    FMCSA uses available highway performance data to identify 
high-risk carriers using a program called the Safety Status 
Measurement System or SafeStat. Both the DOT Office of 
Inspector General and the Government Accountability Office have 
reviewed SafeStat and, while identifying ways the system can be 
improved, they have consistently concluded SafeStat is 
successful in identifying high-risk carriers. The Agency 
appreciates the constructive nature of their recommendations 
and is taking steps to implement the findings of their reviews.
    In fiscal year 2006, FMCSA and our State partners conducted 
over 15,000 compliance reviews, a 33 percent increase over 
2004, and 3.3 million roadside inspections, an increase of 9 
percent. While it is extremely difficult to measure deaths that 
were prevented, we know from past independent analysis that 
carriers improve safety after a compliance review or a roadside 
inspection.
    Working with States on complete, accurate and timely crash 
and inspection data from several years, we have implemented a 
variety of data programs to improve reporting and we have seen 
improvement. Between 2004 and 2007, the number of large truck 
crashes reported increased by 32 percent and the number of 
States achieving a good progress rating from our Agency has 
increased from 25 to 40 and the number of States needing 
improvement has been reduced from 12 to 3. We are committed to 
continuing our work with the States in this endeavor.
    States have roles in regulating and enforcing commercial 
vehicle transportation. That makes them uniquely able to 
implement key safety programs, and I would like to highlight 
just one.
    SAFETEA-LU authorized the Motor Carrier Safety Assistance 
Program (or MCSAP) to be used as a traffic enforcement tool 
while not having to conduct a commercial vehicle safety 
inspection. The authority also allows reimbursement of State 
traffic and enforcement activities against non-commercial 
vehicles when the conditions exist in and around a commercial 
vehicle that would create a crash. This new initiative you 
authorized allows FMCSA and the States to involve a broader 
population of law enforcement to expand enforcement and reduce 
commercial vehicle related crashes.
    In cooperation with NHTSA, we recently implemented the 
Ticketing against Aggressive Cars and Trucks TACT program in 
the State of Washington. NHTSA's success in combining education 
and enforcement has been proven successful in increasing 
seatbelt usage, and this similarly structured program of 
evaluating how well TACT works is something that we are seeing 
as an effective tool to use in our enforcement endeavor.
    GAO also has recently audited the program and has 
recommended that we do a national rollout. Currently, there are 
22 States that are involved in some manner of doing non-
commercial vehicle enforcement activities with their grants.
    The last thing I want to mention briefly is that CSA 2010 
is a key component of our future focus for improving 
identifying high-risk carriers. CSA stands for Comprehensive 
Safety Analysis. We hope to have it fully operational by the 
year 2010.
    FMCSA will use all safety violations to assess carrier 
safety in identified areas, not just a limited list of 
violations that have been determined to be critical or acute 
and by including all violations in a motor carrier safety 
fitness determination, we will be addressing one of the 
National Transportation Safety Board's most wanted items for 
FMCSA.
    Another important feature of this new model is that safety 
assessments and fitness determinations will be updated monthly 
based upon performance data. FMCSA will no longer rely solely 
on the results of an onsite compliance review to make a safety 
fitness determination when CSA 2010 is invoked. This will allow 
the carrier's safety fitness status to reflect ongoing 
performance, not a snapshot of the operational safety at the 
time of the onsite review.
    In conclusion, Mr. Chairman, I appreciate the Committee's 
support of commercial vehicle safety. I look forward to working 
with you to achieve our mutual goals and would be happy to 
respond to your questions.
    Mr. DeFazio. Thank you, Mr. Administrator.
    With that, I would turn to Calvin Scovel, Inspector 
General, Department of Transportation.
    Mr. Scovel.
    Mr. Scovel. Chairman DeFazio, Ranking Member Duncan, 
Members of the Subcommittee, thank you for the opportunity to 
testify today on actions taken by FMCSA to improve its 
oversight of high-risk motor carriers.
    FMCSA's primary purpose is to reduce crash related injuries 
and fatalities involving the Nation's over 700,000 registered 
motor carriers. My testimony today is based on our extensive 
body of work over the past several years.
    FMCSA has made and continues to make important progress, 
but further reductions in the fatality rate will be difficult 
to achieve. A plateau has been reached, and in some years the 
number of annual fatalities has actually increased. Since its 
establishment in 1999, FMCSA has dramatically increased its 
oversight activity.
    It can, however, take further steps in three specific 
areas. One, it can better target carriers for enhanced 
oversight through the use of more complete crash data. Two, it 
can look for ways to strengthen its compliance reviews when 
vulnerabilities are identified. Three, it can close a loophole 
that allows repeated violations of safety rules by the same 
carriers.
    First, better targeting for enhanced oversight: FMCSA uses 
a safety measurement system called SafeStat that primarily 
utilizes crash data along with other factors to identify motor 
carriers whose history suggests the need for greater oversight. 
However, many non-fatal crashes are missing from its database 
because they are not reported to FMCSA by the States. Such 
missing data can skew SafeStat results, so that lower risk 
companies are targeted for more oversight. FMCSA is currently 
working with the States to ensure that all reportable crashes 
are included in the risk ranking.
    Two, enhancing compliance reviews: While we have not 
examined the compliance review process in detail, a recent 
accident here in the Washington area highlights how compliance 
reviews could be strengthened to increase the likelihood that 
all safety issues will be addressed. This past March, a large 
truck owned by BK Trucking of New Jersey crashed on Interstate 
495 while on its way to Virginia, killing a local resident, the 
father of two young children. The driver was operating the 
truck on a suspended commercial driver's license.
    Due to its SafeStat ranking, BK Trucking had undergone a 
compliance review by FMCSA the previous month. We were told 
that while the driver's name did surface during the review, he 
was identified as an independent owner-operator and therefore 
not subject to a driver's license check. This was in accord 
with FMCSA's process.
    As a result, however, the driver's poor record which 
included citations in six States for speeding, defective brakes 
and a previous charge of driving with a suspended license was 
not uncovered during the compliance review.
    The case indicates how difficult and complex FMCSA's 
responsibilities can be and that additional guidance may be 
needed on determining whether drivers are actually owner-
operators or rather have simply been classified as such to 
avoid closer scrutiny by FMCSA. We further believe that FMCSA 
should consider expanding its compliance review to include 
sampling of all drivers including owner-operators to determine 
whether they hold valid driver's licenses.
    Stopping repeat violators: A loophole in FMCSA's 
enforcement policy has allowed hundreds of repeat violators of 
safety rules to escape the maximum civil penalties that by law 
can be assessed when a pattern of violations is noted on 
enforcement claim documents provided to the carrier. If certain 
mitigating factors exist, however, such as a carrier's 
inability to pay a civil fine, then penalties are waived.
    When no penalty is assessed, FMCSA does not document the 
violation in its notice of claim. Consequently, it appears that 
no violation occurred. In such cases, a pattern of violations 
can be difficult to establish. A carrier with limited ability 
to pay then can repeatedly violate the same rule yet avoid a 
more serious penalty as a repeat violator.
    This happens often. Between September, 2000 and October, 
2004, only 33 out of 533 motor carriers or 6 percent that 
repeatedly violated either hours of service or drug and alcohol 
regulations received the maximum penalty.
    It is important that FMCSA establish some method to deter 
those repeat offenders who are able to avoid fines due to an 
inability to pay. FMCSA has addressed this problem.
    Finally, a new compliance enforcement model is expected to 
be deployed by 2010. FMCSA has been working since 2004 on a new 
model that will overhaul its systems that identify and target 
high-risk motor carriers and monitor their performance.
    While we have not extensively reviewed the new model, any 
data driven model would benefit from improved data 
completeness. Strong enforcement will also need to remain a 
significant element of FMCSA oversight.
    Mr. Chairman, this completes my statement. I would be happy 
to answer any questions that you or other Members of the 
Subcommittee may have.
    Mr. DeFazio. I thank the gentleman.
    Next will be the Honorable Deborah Hersman, National 
Transportation Safety Board.
    Ms. Hersman.
    Ms. Hersman. Good afternoon, Chairman DeFazio, Ranking 
Member Duncan and Members of the Subcommittee. Thank you all 
for inviting the National Transportation Safety Board to 
testify on FMCSA's oversight of high-risk carriers.
    When transportation tragedies occur, the Safety Board helps 
restore the public's confidence in our systems by conducting 
thorough objective investigations and making recommendations so 
that those accidents don't happen again.
    One year ago, Congress turned to the Safety Board to 
investigate the collapse of the ceiling panels in the Big Dig 
tunnel in Boston because of our reputation for thorough 
independent investigations. Yesterday, the Board completed our 
work on this tragedy, citing a failure of materials and 
management oversight and making recommendations regarding 
tunnel safety.
    This Committee can assist the Federal Highway 
Administration in ensuring tunnel safety by making sure they 
have the adequate authority to require regular inspections of 
tunnels.
    Everyday there are approximately 19,000 accidents on our 
Nation's highways, causing over 43,000 fatalities and 3 million 
injuries every year. Accidents involving large trucks comprised 
about 10 percent of those fatal accidents.
    Motor carrier accidents that we investigate are typically 
not caused by one thing. They are a chain of causes or events 
that ultimately result in fatal accidents. Often, these 
accidents involve poor performing carriers. It is not unusual 
for us to find that carriers involved in accidents have a 
number of problems. They may have high out of service rates, 
undisclosed medical conditions of their drivers and/or 
falsified logbooks.
    These traits are very telling to us because they are 
precursors to an accident. Understanding the significance of 
these poor safety conditions is the first step in preventing 
future accidents.
    Today, I would like to focus on three areas in which the 
FMCSA has proposals pending for improvements: the compliance 
review process, medically unqualified drivers and electronic 
data recorders for hours of service. These initiatives could 
make the difference in effectively removing unsafe carriers 
from the road.
    One of the major issues surrounding FMCSA's oversight role 
is the effectiveness of the compliance review process. Carriers 
are rated on six safety fitness factors. In a Safety Board 
study of motor coach accidents from 1999, the Board made 
recommendations to elevate the factors for vehicles and drivers 
to ensure that carriers with poor ratings in either of these 
critical areas would not receive a satisfactory rating overall.
    Earlier this year, the Board completed an investigation 
into a motor coach fire near Dallas, Texas that killed 23 
passengers during the evacuation for Hurricane Rita. In this 
particular accident, numerous safety violations were uncovered 
prior to the accident, yet this carrier still had a 
satisfactory rating.
    Another major oversight issue for the Board concerns 
medically unqualified drivers. Following a 1999 Mother's Day 
bus crash in New Orleans in which 22 people were killed, the 
Safety Board issued eight recommendations to the Federal Motor 
Carrier Safety Administration. We outlined a comprehensive 
medical oversight program.
    Although the FMCSA has made progress on one of these 
recommendations, seven remain classified in an unacceptable 
status. The Safety Board is convinced that for any commercial 
vehicle driver oversight program to be effective, it is 
necessary for there to be a systemic approach that addresses 
all of the issues conveyed in the eight recommendations.
    Finally, I must talk to you about how technology can help 
prevent fatigue related accidents. As you know, paper logbooks 
offer many opportunities for drivers to play fast and loose 
with the hours of service rules. Recognizing this lack of 
accountability, the Safety Board has recommended tamper-proof 
data recorders for over 30 years for motor carriers.
    The FMCSA this year issued an NPRM on EOBRs, Electronic On-
Board Recorders. However, it does not apply to all carriers. 
The program relies on the FMCSA's ability to catch poor 
performers through its compliance review program. Given the 
current problems with the compliance review program and the 
fact that FMCSA can only audit about 1 percent of all carriers 
annually, we don't believe that this is the most effective way 
to address hours of service issues.
    In summary, the Board urges the Congress to support the 
FMCSA in its efforts to improve the compliance review program, 
to establish effective medical oversight and to require on-
board recorders for all motor carriers. Taken together, these 
changes will begin to remove high-risk carriers from our 
Nation's highways.
    Thank you.
    Mr. DeFazio. Thank you.
    Now we turn to Ms. Susan Fleming from the Government 
Accountability Office.
    Ms. Fleming. Good afternoon, Chairman Oberstar, Chairman 
DeFazio and Members of the Subcommittee.
    Thank you for the opportunity to discuss FMCSA's oversight 
of motor carriers that pose high crash risk. This is an 
important issue. About 5,500 people die each year as a result 
of crashes involving large commercial trucks or buses and about 
160,000 more are injured.
    Due to the size of the motor carrier industry, FMCSA is 
only able to conduct a small percentage of compliance reviews. 
It is therefore crucial that FMCSA identify the most unsafe 
carriers to either improve their operations or to prohibit them 
from operating.
    My testimony today has three parts: the extent to which 
FMCSA identifies carriers that subsequently have high crash 
rates; how FMCSA ensures that its compliance reviews are 
conducted thoroughly and consistently; and the extent to which 
FMCSA follows up with carriers with serious safety violations. 
By and large, FMCSA does a good job in each of these areas.
    That being said, we have identified areas that could be 
improved. First SafeStat, the data driven model that FMCSA uses 
to identify carriers that pose a high crash risk, is nearly 
twice as effective as random selection. Therefore, it has value 
for improving safety.
    However, its effectiveness could be improved through either 
of two enhancements that we analyzed. One entails implying a 
statistical approach called the regression analysis instead of 
relying on expert judgment to apply weights to each of the four 
areas. The other uses the existing SafeStat design but selects 
more carriers that scored the worst in the accident evaluation 
area.
    Both enhancements perform better than the current SafeStat 
approach. In fact, the regression approach identified carriers 
that had twice as many crashes in a subsequent 18 months than 
did SafeStat. We have recommended that FMCSA adopt this 
approach.
    I will now turn to my second topic, compliance reviews. We 
took a high level look at how FMCSA manages its compliance 
reviews and found that the Agency does so in a fashion that 
meets GAO standards for internal control thereby ensuring 
consistency and thoroughness in these reviews. It does so 
through establishing compliance review policies and procedures, 
classroom and on-the-job training of inspectors, and using an 
information system to document the results of its reviews, and 
also monitoring for performance.
    We also found that compliance reviews almost completely 
cover the nine major areas of the Agency's safety regulations.
    Moving on to my third point, in fiscal year 2005, FMCSA 
followed up with 99 percent of carriers with serious safety 
violations to determine whether they had improved or to 
prohibit them from operating. In addition, FMCSA monitors 
carriers to identify those that are violating out of service 
orders.
    However, it does not take additional action against many 
violators of out of service orders that it identifies. It cited 
only 26 of the 768 carriers that had a crash or roadside 
inspection while under an out of service order. FMCSA told us 
that it does not have enough resources to determine whether all 
of these carriers were indeed violating out of service orders. 
For example, some of these carriers may have leased their 
vehicles to others.
    Furthermore, FMCSA does not assess maximum fines against 
all carriers that we believe the law requires partly because 
FMCSA does not distinguish between carriers with a pattern of 
serious safety violations and those that repeat a serious 
violation.
    Finally, FMCSA assesses maximum fines only for the third 
instance of a serious violation. We read the statute as 
requiring FMCSA to assess the maximum fine if a serious 
violation is repeated once, not only after it is repeated 
twice.
    We are considering a recommendation that FMCSA revise these 
policies in our report that will be issued later this summer.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions that you or Members of the 
Subcommittee might have.
    Mr. DeFazio. Thank you, Ms. Fleming.
    Chief Steve Vaughn, California Highway Patrol. Chief?
    Chief Vaughn. Thank you, Mr. Chairman. I would like to 
thank you for the opportunity to speak before this Committee 
today. Especially to Congresswoman Napolitano, long-time friend 
of the CHP, thank you, ma'am.
    CHP provides service to the commercial vehicle industry 
through promulgation of regulations pertaining to vehicle 
safety, driver fitness and transportation of hazardous and 
other materials requiring special load securement.
    The department's on-highway commercial enforcement program 
consists of 248 officers and 257 non-uniformed commercial 
vehicle inspection specialists which operate 16 inspection 
facilities and 34 platform scales. These personnel are focused 
on the inspection of commercial motor vehicles and their 
drivers.
    An additional 138 personnel are assigned as mobile road 
enforcement officers to allow for the inspection of commercial 
vehicles that purposely avoid or due to delivery routes do not 
traverse inspection facilities or platform scales.
    The CHP's off-highway motor carrier safety program is 
staffed by non-uniformed motor carrier specialists that are 
dedicated to the inspection of both truck and bus terminals. 
There are 246 personnel dedicated to this program.
    California's BIT program, Biennial Inspection of Terminals, 
is very similar to the compliance review program conducted by 
the Feds, but there are some differences. The BIT mandates an 
inspection of every terminal in California once every 25 
months. The Department conducts approximately 20,000 BIT 
inspections annually.
    In addition, we have some other responsibilities and 
program authorities. They fall in the annual inspection and 
certification of school bus, school pupil activity bus, youth 
bus and tour bus operators. There are over 26,000 school buses, 
1,600 school pupil activity buses, 500 youth buses, 9,400 tour 
buses and 4,000 bus terminals that are inspected and certified 
annually by the CHP.
    We also look for motor carrier compliance with the 
controlled substances and alcohol testing of commercial 
drivers. We conduct over 11,000 inspections annually in that 
area.
    We also monitor the motor carriers enrollment into the 
California Electronic Pull Notice, a system which requires 
motor carriers to register their drivers with DMV and allows 
them to receive automated notifications upon changes to the 
drivers' status.
    The efforts of the CHP has resulted in the most productive 
on-highway commercial enforcement program in North America. 
Between 2004 and 2006, the CHP conducted an average of 45,313 
on-highway inspections each month. We believe a clear 
correlation can be drawn between our continued reduction in 
commercial motor vehicle mileage death rate and the program 
that we have.
    I was also asked to provide some thoughts based on 
California's experience in the area of motor carrier safety on 
how we can improve safety across the Nation.
    First, I would recommend that FMCSA serve as a conduit 
between Congress and the States and industry. FMCSA needs to 
serve more as a safety agency and less as an enforcement 
agency.
    They should work closely with the States, which I will say 
they do, various associations such as the Commercial Vehicle 
Safety Alliance, AAMVA and the American Trucking Association to 
develop new ideas for legislation and programs. This serves as 
a ground-up approach to implementing safety initiatives and 
allows for the inclusion of the primary stakeholders prior to 
the passage of new laws, regulations or programs.
    New technology has also provided us with some excellent 
opportunities to improve safety. I believe Congress should 
consider new laws to equip commercial motor vehicles with 
safety technologies at the time of manufacture, items such as 
lane departure warning systems, rollover protection, radar 
forward-looking infrared systems and computer enhanced braking 
systems.
    At the very least, consideration should be given to 
applying tax credit incentives for motor carriers and 
manufacturers in this area. Motor carriers that are taking this 
upon themselves and have equipped their commercial motor 
vehicles with these technologies have reported a reduction in 
traffic collisions and maintenance costs.
    Also, I believe FMCSA should provide States with additional 
funding to improve or upgrade existing commercial vehicle 
inspection technologies.
    Finally, in cooperation with the States and motor carrier 
associations, FMCSA should develop a better electronic system 
to identify unsafe commercial drivers. I understand they are 
currently in the midst of prototyping an electronic driver 
notification system similar to the California Pull Notice 
program. I would encourage them to expedite the nationwide 
development of this system while at the same time being careful 
and mindful of the consideration of the fiscal impacts on the 
States and their existing programs.
    We need to retool the commercial driver's license program 
for drivers and how it is administered by the States. I am 
hopeful that the recommendations of the Commercial Driver's 
License Advisory Committee will be strongly considered when 
presented. There needs to be tougher medical qualifications for 
drivers and doctors and they need to be held accountable. There 
also needs to be mandatory driver training.
    Finally, I appreciate the Committee holding this hearing 
today and the opportunity to speak on California's experience, 
and I will welcome any questions. Thank you.
    Mr. DeFazio. Thank you, Chief.
    I now turn to Captain Ken Urquhart with the Minnesota State 
Patrol.
    Mr. Urquhart. Good afternoon.
    Mr. DeFazio. Chairman Oberstar, do you have anything you 
want to say at this point? You might be good to him in case you 
get pulled over going too fast on your bicycle some day.
    [Laughter.]
    Mr. Oberstar. I welcome you to the hearing and thank you 
for making the trip from Minnesota. You will probably be very 
happy to get back there given the temperature and the humidity 
out here.
    Mr. Urquhart. You're absolutely right, Mr. Chairman. This 
weather you have today is weather we had the other day.
    Mr. Chairman, Mr. DeFazio and Mr. Oberstar, thank you for 
allowing me to address the Committee today.
    My name is Ken Urquhart. I am the Commander of our 
Commercial Vehicle Enforcement Division in the Minnesota State 
Patrol. We are the lead MCSAP agency in Minnesota. We do 
subgrant about 35 percent of those resources to a partner 
agency in our State, the Minnesota Department of 
Transportation.
    Just to kind of set the tone here, Minnesota in the year 
2006 had reached a number of fatalities in our State that was 
lower than World War II. So we had not seen that level of 
fatalities at that low point since World War II, 1945.
    Along with that, truck fatality crashes from 2005 to 2006 
were reduced 17 percent, injury crashes, 14 percent and overall 
crashes, 12 percent. So we are seeing a steady decline not only 
in our truck crashes but crashes across the board.
    FMCSA has set a goal for 2011 for the States to achieve a 
.16 fatality rate for vehicle miles traveled. We reached .12 in 
2006, and we have steadily declined since the year 2000. So we 
believe that our comprehensive truck safety program is working.
    I am not going to claim all the credit for the reduced 
fatalities. There are a number of variables that go into that. 
We all know that. But Minnesota is on the right track, and we 
are quite proud of that.
    As far as our data, one of the things we put into place 
during our legislative session in 2002 was to require all 
trucks that exceed 10,000 pounds to register and obtain a U.S. 
DOT number, whether they operate interstate or intrastate. 
Along with that, these owners or these motor carriers that 
operate these vehicles even intrastate are not even allowed to 
re-register their vehicles until they update their MCS150. 
Basically, what we have accomplished there is we have 
identified the bulk of our motor carriers no matter how they 
operate in Minnesota.
    This is done us a great service in the quality and accuracy 
of our data. I think Mr. Hill talked about how States have been 
improving data. This was the primary reason that Minnesota saw 
an improvement in our crash data accuracy and timeliness along 
with our inspection data and citations.
    The other thing that Minnesota historically does is we 
adopt Federal regulation by chapter. So if there are changes 
through rulemaking or from Congress, we adopt those by chapter. 
We don't have to return to our legislature generally every 
year, year after year, to adopt new regulations to remain 
harmonious with our Federal colleagues. I think this is a very 
efficient way to do things. We are lucky on that fact.
    Some of the newer programs that we have in place that we do 
give credit to reducing crashes is we implemented two years ago 
strictly a driver focused enforcement program, and that cuts 
across all lines, not only roadside enforcement with 
inspections but also with compliance reviews, follow-up 
compliance reviews on crashes.
    One of the things we demand is that when we have a 
significant crash, whether it is a personal injury or 
fatalities, we ask our Federal colleagues or our DOT colleagues 
in Minnesota to conduct a follow-up compliance review to 
determine what type of philosophy that motor carrier is 
operating. Did they contribute to that crash with a poor safety 
philosophy or was it strictly related to some driver decisions?
    We are trying to send a message to the motor carrier 
industry in our State that if you are involved in one of these 
things, you will go under the microscope. We have had a great 
deal of success with our driver focused program.
    We have instituted a fatigue detection program, and 
subsequently our driver out of service rate has doubled. We 
went from approximately 8 percent to 16 percent out of service 
on drivers.
    The industry is responding. I left Minnesota this morning, 
and in the paper yesterday was an article about a large carrier 
from a neighboring State that employs 15,000 drivers. Of the 
15,000 drivers, they identified 10 percent of them are dealing 
with sleep apnea. What was the carrier doing about it? They got 
proactive, and they are assisting those drivers with getting 
treatment.
    Now we are going to see drivers with sleep apnea machines 
in their sleepers, but we all know that sleep apnea is just one 
of the issues these drivers deal with when it comes to fatigue, 
and we all know that drivers can log legitimately and still be 
fatigued. It is all based on their lifestyle. So we have 
implemented this program, and we believe that we have had great 
successes by removing some of these at-risk drivers.
    As far as our compliance reviews, we perform a significant 
number of compliance reviews in Minnesota. Of the State 
partners that have State personnel inputting those reviews to 
the Federal system, we are one of the leaders in that area.
    We feel it is very important to touch the industry on 
multiple levels again and again, and we do this not only with 
the implementation of the U.S. DOT number but also with our 
annual inspection program, when we recertify their maintenance 
personnel through compliance reviews, through our required 
inspections and audits on all passenger carriers, school bus 
operators and limo operators.
    Basically, in a nutshell, Members, I have given you what 
Minnesota is doing as of today, and we feel that we are on the 
right track to reducing crashes. Thank you for this opportunity 
to visit with you today.
    Mr. DeFazio. Thank you, Captain.
    Mrs. Napolitano had wanted to introduce the chief, and I 
had neglected to let her do that and also she wanted to make a 
brief opening statement. So, at this point, I am going to 
recognize her to go first with questions.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. It really wasn't 
necessary, but I thank you for the opportunity.
    Number one, thank you for the hearing because I think this 
is something that is in the mind of many citizens throughout 
the United States about the safety on the roads. Truck traffic 
certainly, especially in California, in my area is just 25,000 
trucks a day on I-5 and 47,000 trucks on one of the other 
freeways in my district, and these are expected to double by 
2015. So it is an issue that is of great concern, not only to 
my constituency but to the rest of the Nation.
    I certainly want to give a warm welcome to Mr. Vaughn and 
regards to Commissioner Brown. We go back many years since I 
sat on Transportation in California, overlooking the use of 
tandem trailers and safety on the California highways. They do 
an excellent job, and I am so happy that you are here, sir, to 
share with us the experiences of the highway patrol, what I 
consider to be the preeminent law enforcement agency at least 
in California.
    With that, thank you, Mr. Chair. I have questions, but I 
will wait my turn. Thank you.
    Mr. DeFazio. Okay, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    Now, Administrator Hill, did I read that your Agency did 
40,000 new entrant reviews last year?
    Mr. Hill. You read that there were 40,000 done, but we did 
not do them all ourselves. The States did the vast majority of 
the new entrant audits, sir.
    Mr. Duncan. Oh, I see. But you have increased your 
compliance reviews by a third?
    Mr. Hill. Yes, we have significantly increased our 
compliance reviews since 2004. We have increased it, I think, 
about 30, 34, 40 percent since that time. So we are making 
gains, and one of the things I am pleased about is the States 
are much more involved in the compliance review process.
    When MCSAP, the Motor Carrier Safety Assistance Program, 
began in the eighties, it was fashioned primarily as a roadside 
inspection program, and so most of the resources that were 
given to the States allowed them to build an infrastructure 
that would do inspections. But States like Minnesota and 
California have been very proactive to start getting into the 
compliance review arena, and so I am pleased that the States 
also have expanded.
    Mr. Duncan. You heard Inspector General Scovel say that he 
thinks you are working with the States to try to get more 
information about non-fatal crashes. Is that correct and are 
you close to achieving that goal?
    Are you receiving a lot of information from some States and 
no information from other States or what is the situation 
there?
    Mr. Hill. Okay. Data quality and completeness is a very 
important issues, and I would answer you a couple ways.
    First of all, on the 2004 review SafeStat, I think the 
Inspector General at that time encouraged us to increase our 
attention with data sufficiency. Since that report was issued 
in 2004, we have seen the number of large truck related crashes 
improve 32 percent. It went from about 100 and I think 7,000 up 
to 144,000. So we are pleased with the amount of improvement 
that has been made.
    The problem is we still have pockets of the Country that we 
have not been able to see that kind of data improvement. What 
we are doing internally is trying to develop programs to 
augment that. For example, States are not eligible to use some 
of their high priority funding for related activities in the 
MCSAP program unless they first use that money to address data 
quality. So we are using MCSAP data to address it.
    Then secondly, we also have created some measurement tools 
that allow the States to have a pictorial view through a map--
green, yellow and red--and determine how they are meeting data 
sufficiency.
    Then back to your original question about the non-fatal 
crashes, this is the next arena that we need to move into 
because we have not seen the kind of non-fatal crash data 
improvements that we would like. That is the next frontier for 
us, and we are going to retool our measurement system beginning 
later this year. We have got the States now, about 41 of them, 
are green. So now we are going to probably see that degrade a 
little bit because of the non-fatal crashes.
    I would say to you that the congress has been giving grants 
to us through the Motor Carrier Safety Assistant Program to the 
tune of $3 million this year in SAFETEA-LU, and we had $6 
million of requests for those kinds of grants. There is a lot 
of interest in the States. We are trying to get the money out 
to them, so they can change their reporting systems.
    Mr. Duncan. I know that you also heard Inspector General 
Scovel say that we basically had reached a flatlined level and 
that it was going to be very difficult to get much more of a 
decrease or much more of an improvement in the fatality rate. 
Do you agree with that?
    In a way, it is saying that you are doing a really good 
job. In another way, it is saying there is not much room for 
improvement. What do you say about that?
    Mr. Hill. Well, it is a fair question, and it is what we 
are here for. We are supposed to be seeing the numbers go down, 
not just plateau. I would say to you a couple things.
    First of all, one of the concerns that I have is that we 
still have about 46 percent of the trucking population out 
there that don't use safety belts, and so we have been trying 
to work with that. If we could save 300 and some lives every 
year of truckers not losing using their lives just by clicking 
their safety belt. So we are trying to move that agenda 
forward.
    I would say to you that I really believe that the future of 
large reductions in fatalities involving commercial vehicles 
are going to be technology system that Chief Vaughn referred to 
in his opening statement. I think as we see more vehicles 
equipped with devices that give the driver additional help in 
alerting them to upcoming traffic or to not deviate from their 
departure of their lane, I think we are going to see real 
reductions in crashes and fatalities. I would like to see some 
kind of discussion, meaningful discussion about incentives that 
would encourage companies to want to do that.
    Mr. Duncan. All right, thank you very much.
    I will come to other questions later. Go ahead, Mr. Chair.
    Mr. DeFazio. Thank you, Mr. Duncan.
    The GAO found that 38 percent of the carriers, I believe, 
(768 of 1,996) were subject to an out-of-service order in 2005 
and 2006 and were found at roadside inspection to be out of 
compliance with an out-of-service order or were involved in a 
crash. Yet, FMCSA only cited 26 of the 768.
    I guess my question would be if someone has an out-of-
service order and they are found at a roadside inspection or 
cause a crash, why were such a minuscule percentage of them 
fined? It doesn't seem like a big deterrent to me, and it seems 
like a license to ignore an out-of-service order.
    Mr. Administrator.
    Mr. Hill. Mr. Chairman, I would say a couple of things in 
response to that.
    First of all, there is a mechanism for States to place a 
driver and a vehicle out of service at the roadside independent 
of us doing it through a compliance review. I don't know if the 
GAO study really addressed the roadside out of service issue or 
not.
    But in terms of ours, we certainly take action when we 
determine that it has occurred but verifying that that is 
happening is a very labor intensive process. For example, when 
we find that a carrier has been having inspection activity 
after they have been placed out of service, we have just begun 
here in the last two years to start citing those people for 
violating their out of service order.
    So we are starting to infuse this into our enforcement 
process, but in the past it was simply whenever we went in and 
did a compliance review did we find that occurring with the 
carriers that we were addressing and we did not.
    Mr. DeFazio. Do you have any kind of a real time system so 
that your inspectors can input into a computer and find out 
that that carrier is out-of-service?
    Mr. Hill. Yes.
    Mr. DeFazio. Okay. Now if they find that, on the spot, I 
would assume they would probably do two things: impound the 
truck and fine them because the truck, it seems to me, would be 
not safe to continue since they are out of service.
    Mr. Hill. If the carrier is out of service, the vehicle 
cannot be moved until that is remedied and that is done at the 
roadside and that is a process that occurs consistently 
throughout this Country. I believe that the amount of penalty 
they are subject to is $10,000 for doing that.
    Mr. DeFazio. Basically, the GAO numbers of 2005 and 2006 
don't reflect the fact that in 2006 and 2007 that this has been 
a much more active enforcement against out-of-service companies 
when found to be out of service.
    Mr. Hill. We are beginning to address that much more 
rigorously as a result of the work that we are doing with the 
GAO and Inspector General.
    Mr. DeFazio. Okay. Does the GAO have any comment on that?
    Ms. Fleming. We haven't looked at the 2006, 2007 numbers.
    Mr. DeFazio. Okay, all right.
    Another concern that was raised which I find of great 
concern, I believe this was raised by the NTSB, was the issue 
of what criteria would cause someone to become unsatisfactory. 
I guess the question is here, and I direct it first to NTSB and 
then ask Administrator Hill to comment, but I would agree with 
the NTSB who has a most wanted safety improvement saying if 
either a vehicle or a driver is in serious noncompliance, that 
that should result in an unsatisfactory rating.
    It seems to me that, gee, we have got some really great 
drivers driving really unsafe vehicles or we have got some 
really substandard drivers driving really spiffy new trucks. 
Neither of those should be rated, it seems to me, either 
conditional or satisfactory. Would you comment on that, Ms. 
Hersman?
    Ms. Hersman. Yes, Mr. Chairman. You have stated it well. On 
our most wanted list, we have had a recommendation that we 
issued in 1999, and it is in an unacceptable status. We believe 
that drivers and vehicles are the best indicators of how a 
company is going to perform.
    We have looked at numerous accidents including the recent 
Wilmer, Texas accident involving the bus operator. In that 
situation, we had a driver who had been pulled over for three 
roadside inspections. In two of those, he was placed out of 
service for hours of service violations.
    We have had companies that we have looked at that were 
involved in accidents. For example, in Indianapolis, a motor 
coach operator, Hammond Yellow Coach, was inspected nine times 
in the eight years prior to their fatal accident. Their post-
accident compliance review revealed that 10 out of 10 of the 
vehicles reviewed were out of service. They were still given a 
conditional rating.
    Mr. DeFazio. Also, perhaps for another question later, but 
the whole issue of when one is moved from unsatisfactory to 
conditional, what sort of oversight is conducted?
    Anybody else want to comment on this before I turn to the 
Administrator for his response? Does anybody else have feelings 
about the fact that if either there are significant driver 
problems or vehicle problems, that that should result in an 
unsatisfactory rating as opposed to having to have both?
    Okay, Administrator Hill. I am going to say that their 
silence means that they all agree with me, so you know.
    Mr. Hill. Well, you certainly have that prerogative, Mr. 
Chairman. I understand.
    I would just say to you that is one of the reasons why, in 
my opening statement, we are trying to deal with the NTSB 
recommendations through the Comprehensive Safety Analysis 2010.
    Mr. DeFazio. Let me just interrupt for a moment. But they 
also recommended, given the fact that there are questions about 
whether you will make 2010 and even if you made 2010, they are 
saying perhaps, in fact, I don't think they said perhaps; they 
said there should be an interim rule addressing specifically 
this question. Wasn't that correct, Ms. Hersman?
    Ms. Hersman. We would actually love for them to address 
this, but in addition we ask them to look at all violations, 
not just the acute or critical as well. This recommendation has 
been outstanding on the drivers and vehicles since 1999. We 
feel that even if they accomplish their goal, which we think is 
ambitious for 2010, it is still 11 years after we made our 
recommendation.
    Mr. DeFazio. Okay, Mr. Administrator.
    Mr. Hill. Okay. We believe that CSA 2010 will take that 
into account. What it will do is allow for violations to be 
determining the fitness status of a motor carrier as opposed to 
what we are doing now through a compliance review. Because we 
will be doing monthly runs of the available data, we will be 
able to determine the fitness status in a carrier monthly as 
opposed to having to wait and do an onsite review.
    The second thing I would say to you is that if you start 
adding infusing all of the violations in our current system, it 
is going to exacerbate the number of AB carriers and it is 
going to make it extremely difficult for us, for the resources 
that we have in place to get through all those carriers. Then 
you are going to be calling me up and asking me, well, why 
aren't you getting all the AB carriers?
    What you are going to be doing is adding several what I 
would consider violations that certainly are serious but may 
not point to the crash problem that GAO is pointing out in some 
of their work where they want us to focus on the crash data in 
SafeStat as opposed to just all these other violations. So I 
have got to walk between both recommendations, focusing on all 
violations and focusing on serious crash data as well because 
generally we think that the crash data contributes most to the 
future prediction of what is going to happen.
    Mr. DeFazio. I understand the GAO's position on the 
algorithms or whatever it was they want to develop, as I was 
falling asleep reading it on the airplane. It is very 
important, but I was having a little trouble. It must take 
special writing classes to work at GAO, but the information is 
there if you can stay awake through it.
    It just seems to me though, and it is kind of a common 
sense point that I think NTSB is making here. I don't know 
whether GAO would even disagree with that. They want to use the 
crash data as an indicator, but if either the trucks or the 
drivers aren't safe, it seems to me those are two pretty darn 
critical factors.
    I don't know if there is anybody up there who wants to 
disagree with that. I mean having one or the other, either 
people who have repeated violations and/or suspended licenses 
and are still operating or having trucks that have been found 
to be unsafe to operate, either of those seem to be pretty darn 
critical.
    Would GAO, even though you want to look at the crash data 
and analyze backwards from that, is there any disagreement with 
that common sense approach which is not quite as scientific as 
yours?
    Ms. Fleming. Compliance with safety regulations basically 
helps predict future crash risk. We just found that past 
crashes are a stronger predictor of future crashes than 
compliance with the safety violations.
    Mr. DeFazio. Okay. I think they made a movie about this 
where the policemen arrested people before they committed 
crimes, and I can't remember the name of it.
    Mr. Administrator, if you were to go back and apply this to 
a couple, the Beltway crash here, the bus crash in Texas, you 
would say, gee, those companies should have been and in fact I 
believe at least one of them was a number of times 
unsatisfactory because of these problems.
    Mr. Hill. Mr. Chairman, I agree with you.
    Here is my dilemma. If we implement an interim final rule 
right now and change the system, it is going to create quite a 
bit of disruption, I think, in the way that we do this with the 
industry.
    I am trying to focus on getting the CSA 2010 done because I 
don't really want to be judged on not getting it done. I want 
to be judged because I think we are going to get it done. We 
have met every time line internally. We are on budget. We are 
moving forward. We are going to pilot test this next year in 
four States.
    So we are committed to getting this safety fitness 
determination remedied as the NTSB wants it done. I just think 
we need to do it in a very open manner.
    Mr. DeFazio. My last question, because I am over my time: 
Can you move to full implementation, without legislative 
changes, to the CSA 2010?
    Mr. Hill. We believe that we can.
    Mr. DeFazio. That sounds a little tentative.
    Mr. Hill. Well, no. Here is what I want. We believe we can, 
but we are also in the process of developing three rules. We 
don't believe we can with our current regulatory scheme. We do 
believe we can statutorily.
    Mr. DeFazio. Okay.
    I guess I didn't get the order on your side. Who was here 
first?
    Mr. Poe was here first. Okay, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I have some questions, a lot of them. I will try to get 
through as many of them as I can.
    On March 29th, 2006, 26 girls from Beaumont West Brook High 
School in my Congressional district were riding a coach, a 
motor coach, to the Texas State Soccer Playoffs, and the bus 
flipped over on its side, killed two of them. Most of the 
others were injured. Some of them lost their limbs. I met with 
those parents yesterday in my office to discuss safety of 
school kids on buses.
    I, like any parent, always assumed coach, a motor coach, 
was safer than an old-fashioned yellow school bus. It turns out 
that is not true. School buses are safer than motor coaches 
because of the way they are built with these massive windows 
that break and kids go flying out which is what happened with 
these soccer players.
    My concern is two-fold. One, what is being done, if 
anything, to implement lap seatbelts on school buses or buses 
period that transport school kids, not just the yellow school 
buses but motor coaches?
    Texas actually has passed a law now that school buses that 
transport kids are going to have to have lapbelts for 2010, I 
think. So I would like to know if we are moving in that 
direction.
    I have heard all the arguments. It costs too much and all 
of that, $6,000 a school bus to implement these belts. But when 
you start transporting kids, I think their safety is paramount 
to the cost and if there is anything on the national movement 
that is being done to implement this.
    Then I have a question or comment about the bus that was 
transporting more people from my district during the Rita 
situation that caught fire and people burned to death on the 
bus because they couldn't get off. The driver was illegally in 
the Country, and the bus didn't pass any inspections. So we 
will get to that question second.
    Who wants to weigh in on the seatbelts or lapbelts as they 
are called?
    Mr. Hill. Well, I will start, and they can fill in.
    Mr. Poe. I will start picking on you if you don't 
volunteer.
    Mr. Hill. I would just say to you that there has been a 
considerable amount of discussion about this. The manufacturing 
standards dealing with safety belts in commercial vehicles are 
handled by the National Highway Traffic Safety Administration. 
I know that they are currently looking at several different 
related recommendations as a result of the Wilmer incident that 
Ms. Hersman referred to in her opening statement.
    Secondly, from our perspective in the Motor Carrier Safety 
Administration, we enforce the operational regulation. Our role 
would be consultive and not to be prescriptive.
    Mr. Poe. Do you have an opinion? Yes or no, do you think 
they ought to be on motor coaches?
    Mr. Hill. No, I don't have an opinion at this point. I 
would have to look at some of the data.
    Ms. Hersman. Congressman Poe, I will jump in here. I 
actually this morning spoke at a summit that NHTSA is holding 
on seatbelts on school buses, and the Safety Board has taken a 
position regarding occupant protection both in school buses as 
well as motor coaches. These issues are on our most wanted 
list.
    The motor coach issues deal with keeping passengers inside 
the vehicle, addressing the windows, roof crush strength and 
redesign of the passenger seating compartment to restrain 
passengers.
    With respect to school buses, the Safety Board has launched 
on a number of school bus accidents. We have quite a bit of 
information about those investigations. Last November, we 
elevated to our most wanted list a recommendation to NHTSA to 
redesign the passenger seating compartment for school buses in 
an effort to try to make them safer. School buses are very 
safe, but any fatality is one too many when it comes to the 
children that we transport.
    Mr. Poe. In the redesigning of the school bus, are you 
talking about using these lapbelts? Is that what you are 
talking about or something else?
    Ms. Hersman. No. The Safety Board is not prescriptive with 
respect to the type of restraint or occupant protection 
standard that might exist.
    As you are very familiar with--it sounds like you have 
focused on this issue--compartmentalization is the current 
passive form of restraint on school buses. The Safety Board has 
recommended that they look at occupant protection, potentially 
a redesign of the entire seating compartment.
    There were presentations today at the safety summit about 
seatbelts, but we think that there are a number of issues 
including sides of the buses, the roof, coming in contact with 
other children, the sides of seats. All of these materials are 
not designed to absorb impact energy in a lateral crash or a 
rollover. We think that they need to look at the entire system.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    We are going to have to recess. They have called a series 
of votes. Unfortunately, because of the way they have set it 
up, there is going to be a motion to recommit, a couple of 15 
minute votes. It is going to take 50 minutes, 50, and as soon 
as possible we will return.
    I hope all the members of the panel can stay. I have had a 
number of people including the Chairman express very strong 
interest in having a round of questions. So if you absolutely 
have to go, we might understand anyway.
    With that, the Committee stands in recess.
    [Recess.]
    Mr. DeFazio. Thanks for your tolerance of our ways around 
here on the schedule. It seems we could condense some of that. 
But, in any case, I have a few more questions, and I know other 
Members will be arriving shortly and they do. We wanted to make 
the best of your time that we could.
    Oh, I see Mrs. Napolitano, and she hasn't had her turn yet.
    So I will turn to you, Mrs. Napolitano. Thanks. I was just 
going to fill up the time, hopefully productively.
    Mrs. Napolitano. Thank you.
    Mr. DeFazio. But you are recognized.
    Mrs. Napolitano. Thank you, Mr. Chair. I was unavoidably 
detained speaking to highway patrol, one of our guests.
    Mr. Scovel, listening with great intent, the number of 
accidents that you say that are happening, what are the major 
causes?
    We know fatigue. We know the training. We know the truck 
maintenance, all of that. What is the major issue and how can 
we address it?
    How can we without adding more laws? There are already 
enough laws on the book.
    Is it personnel? What is it that we need to be able to 
address what everybody has identified is an issue?
    Mr. Scovel. Thank you, Mrs. Napolitano.
    Based on the work that my office has done both on the 
investigation side and on the program audit side, we believe a 
prime focus should be on the driver. We concur with NTSB that 
certainly a significant concern is with the vehicle and vehicle 
maintenance and integrity, but for us our attention has been 
focused on the driver.
    When we talk about the improvements that FMCSA and the 
Department and the industry and our State partners have made in 
driving down fatality rates and fatality numbers and the fact 
that we may now have seen that curve bottom out, we look to see 
where improvements may still be achieved. We think by focusing 
on human factors.
    You mentioned fatigue. Inattention, speeding, use of 
illegal drugs or alcohol, those are all areas where we should 
focus as well as technology, electronic on-board recorders and 
perhaps collision avoidance systems should also, well, we 
believe they must be implemented as well and industry-wide to 
the extent possible.
    Mrs. Napolitano. Well, Ms. Hersman had indicated that 30 
years ago, it was recommended that tamper-proof safety logging 
design be used. Is that something that might help be able to 
reduce fatigue, the driver malfunction, if you will?
    Mr. Scovel. I think she was referring to tamper-proof 
electronic on-board recorders.
    Mrs. Napolitano. Right.
    Mr. Scovel. Which would help us in terms of documenting 
hours of service and preventing falsification of logbook 
entries. In my notes today, I have half a dozen large truck 
fatality cases that my office has recently worked or that are 
still open, and a consistent theme in every one is hours of 
service violations coupled with false logbook entries.
    Mrs. Napolitano. Mr. Vaughn, not too long ago, California 
had a problem with a truck that missed a turn somewhere in 
California and burnt down a whole segment of a freeway. Could 
you tell me what the findings were in relation to the driver?
    Was it the design? Was it driver fatigue? What did you find 
or can you talk about it?
    Chief Vaughn. That investigation is still continuing at 
this time. What I can say about that was the driver had a very 
clean driving record. He had no citations or accidents on his 
record.
    At the time of the accident, we had GPS that we were able 
to go back and look at. He was maintaining a speed of 62 miles 
per hour which is greater than the speed limit for commercial 
vehicles--they are 55--but it is not an excessive speed by any 
means at that time in the morning with traffic out on the 
roadway.
    We found that the driver did take an action, a turning 
movement to move into a traffic lane, went a little bit further 
than he intended, shifted back to the left, and it was at that 
point, we believe, that the fuel shifted, causing the vehicle 
to go onto its side.
    That is not a final. That is a preliminary. The final 
investigation will be completed here shortly.
    Mrs. Napolitano. So, in essence, it could have been the 
shift of not just cargo but the fuel itself.
    Chief Vaughn. Yes, ma'am.
    Mrs. Napolitano. Thank you.
    Ms. Fleming, you indicated the statistical approach has 
been helpful in being able to bring down the number of 
fatalities. Are the fines not enough to be able to get some of 
these folks to understand how serious it is that they put not 
only their own lives in jeopardy but others?
    Ms. Fleming. I think it is a function largely of the nature 
of the commercial trucking industry. You have millions of 
drivers, hundreds of thousands of carriers out there, and FMCSA 
basically can only conduct a small percentage of compliance 
reviews on an annual basis.
    So what they really have to do and what we recommend is 
that they have to look for the most effective means to target 
their resources. What we have found with our statistical 
approach as well as an alternative enhancement is that past 
crashes are the best predictor of future crashes, and so we 
believe that targeting those very scarce resources both at the 
State and Federal levels in that regard is likely to result in 
more compliance with safety and better or I should say less 
accidents.
    Mrs. Napolitano. Do you have enough support system and 
infrastructure personnel to be able to do follow up on those?
    Ms. Fleming. You mean in terms of FMCSA? Again, I think it 
is because they have only have a small set of resources, and so 
it is very important for them to target those resources.
    It is promising that with CSA 2010, their initiative, they 
are looking for ways to, if you will, get the biggest bang for 
their buck. We think that is a promising step, so that they can 
get a better sense and touch most unsafe drivers and carriers, 
and they are looking for ways to more effectively do that.
    Mrs. Napolitano. Thank you.
    Thank you, Mr. Chair. I will wait for the next round.
    Mr. DeFazio. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate your 
chairing this hearing and all the witnesses' testimony.
    I apologize with not being here earlier as many of my 
colleagues, having to be in several different spots at once.
    I have a question to Administrator Hill, and it is a 
follow-up to a conversation we had earlier this year that 
relates to motor carrier safety and not necessarily high risk 
as directly focused here but the general issue of safety, and 
that is the CDL licensing process.
    When we talked back in March, the Agency was looking at the 
revisions to the CDL requirements with the thought that perhaps 
late spring or early summer, we would see a proposed rule on 
new regulations that would, in my word, toughen the 
requirements and strengthen the requirements to ensure that our 
drivers out there of the heavy trucks are well qualified and 
well trained.
    Can you just give me an update of where we stand on that 
issue with those proposed new regulations?
    Mr. Hill. Yes, Congressman Platts. I believe that when we 
had our conversation, you were talking specifically about two 
issues, if I remember correctly, the merger of the medical 
piece to the CDL process. We did issue a notice of proposed 
rulemaking concerning merging those two items together which is 
something that we haven't had in the past.
    Right now, if a driver has a medical qualification, he is 
required to have that every two years. That is done separately 
than the licensing process. So that will merge that.
    The other thing that we talked about, I think, was the 
driver training.
    Mr. Platts. Right, right.
    Mr. Hill. We are in the process of finalizing that. In 
fact, I believe it has just cleared within the Department. We 
will be sending that to OMB for a notice of proposed of 
rulemaking and once they get done with the review, there should 
be a notice of proposed rulemaking out very shortly on the 
training of entry level drivers.
    Mr. Platts. Right, the primary focus is the training of 
that entry level driver.
    Mr. Hill. That is correct.
    Mr. Platts. With that going to OMB, is there a time frame? 
I know it is out of your control when it goes to OMB, but do 
you have an estimate?
    Mr. Hill. Well, generally, they take the 90 days to review 
a proposed rule. I am hoping that later this year we can have 
that on the streets and get it open for the public to comment 
on. We believe. There has already been testimony today, and I 
believe that the industry is very interested in this issue.
    I am excited about seeing how they respond to the proposed 
rule in light of how the court admonished us to take into 
consideration certain factors that were not in the previous 
rule.
    Mr. Platts. As far as your sending it over, would that be 
before the end of this month that it will go to OMB?
    Mr. Hill. I believe that is an accurate statement. Could I 
get back to you faithfully on that?
    Mr. Platts. Yes.
    Mr. Hill. I would like to check with somebody in the 
Department to make sure, but I was told verbally yesterday that 
it had cleared the Department and will be going to OMB.
    Mr. Platts. Okay. I appreciate that. I think it ties into 
the better job we do up front with that entry level driver and 
the training, then that ultimately addresses the broader issue 
here of high-risk carriers and their ability from the get-go 
that they then build on. I think it is important that we move 
forward certainly in a responsible but as expedited as possible 
process as we can.
    Mr. Hill. Congressman, I would just say to you that in 
addition to that, later this year we are hoping to have a 
notice of proposed rulemaking out that will deal with the 
commercial driver's license learner permit process, which is 
also going to be very important because it incorporates some of 
the requirements from the SAFE Port Act for trucking that was 
passed in 2006 that specifically talked about the three 
recommendations that the Inspector General made to us about CDL 
fraud and addressing fraudulent activity.
    We are going to build that into that rule as well. We think 
that these two rules will strengthen the entry level piece of 
the commercial driver's license process.
    Mr. Platts. You or your staff, when they follow up with the 
specifics on the time frame, if they could also provide 
additional information on that aspect of the second proposed 
rule, that would be great.
    Mr. Hill. Okay. You are welcome, sir.
    Mr. Platts. Thank you, Mr. Administrator.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    For Inspector General Scovel, the question is about crash 
data and my understanding is that you have reported on problems 
with the reporting by the various States to the Feds. Now GAO 
is recommending that we put greater weight on crash data. I 
guess I would like both of you to respond to that.
    It seems to me, first, we need to be assured that we are 
getting the most accurate, up to date and timely crash data if 
we were looking at that sort of a change. What are we doing to 
remedy this problem with the States, Mr. Scovel?
    Mr. Scovel. Thank you. I would agree with you that it ought 
to be a stepped process. It would seem to me to be most 
advantageous if data quality were to be maximized to the 
greatest extent possible and then weighted appropriately to 
reflect the degree to which accident information is a predictor 
of future accidents and safety problems.
    If it were to be the other way around, I think we would be 
magnifying the impact of incorrect data which certainly would 
be to the detriment of the industry, to the traveling public 
and to FMCSA certainly eventually.
    Our focus has been specifically on the quality of non-fatal 
crash data.
    Administrator Hill has talked about the State safety data 
quality map which right now looks pretty good. It is important 
for the Committee to note that the data that is represented on 
that map that has been provided by the States specifically 
regarding crashes pertains only to fatal crashes. It doesn't 
yet reflect non-fatal crash data. Non-fatal crash data is 
important because it is a determinant of what motor carriers 
will undergo compliance reviews.
    We believe what is needed and we have recommended to FMCSA 
that they follow up and it is currently an effort that is 
underway to undertake a data quality study by the University of 
Michigan Transportation Research Institute, determine what the 
quality of data submitted by the States has been. We are 
informed that FMCSA proposes to complete that by the end of 
2008. Based on that, clearly there are initiatives that can be 
undertaken in connection with CSA 2010.
    But, in the meantime, a kind of back to basics approach 
would also be helpful, we believe, and that means working with 
State officials to improve the training that they provide to 
their people in the field when they are reporting crashes and 
also simply by looking at the forms that the States use in 
reporting this information to FMCSA. All of those, we think, 
would be helpful in improving the data quality that is so 
important in terms of determining which carriers will undergo 
compliance reviews.
    Mr. DeFazio. Okay. Ms. Fleming, do you share some of those 
concerns about the quality of the data?
    Ms. Fleming. Yes, sir, we do. Our results pretty much 
mirror the DOT's results, the IG's results. We found problems 
with the timeliness, the accuracy and completeness of the data.
    In terms of how we were using the data, which again was to 
try to identify the high crash carriers we found that late 
reported crashes had minor effects to the SafeStat model as 
well as a regression approach.
    Mr. DeFazio. Okay. Another point I believe you raised, Mr. 
Scovel, was you mentioned something about compliance reviews 
looking at all drivers, I believe. Did you not?
    Mr. Scovel. Yes, Mr. DeFazio, we did. We made that 
recommendation--I should offer this caveat--based not on a 
full-scale audit but based on our observations of the BK 
Trucking accident case this past March here in the Washington, 
D.C. area.
    Mr. DeFazio. I am not that familiar with this kind of 
contract status or owner-operator status that the person 
involved had and how that company related to them. Is this 
legitimate arms-length contracting or is this something like we 
find in some other areas of industry where essentially you are 
kind of complying, trying to beat IRS rules here and determine 
who is contracting, who isn't?
    For instance, all the cab drivers in New York are 
contractors, but they go and get the cabs from the same place 
every day. Is it something like that we are looking at here?
    Mr. Scovel. Regrettably, it may be. I confess that my 
office hasn't done an in-depth study. We don't know the extent 
of the problem in the industry, but we think it is worthy of 
FMCSA's attention that their inspectors, first of all, get some 
guidance, some detailed guidance as best we can prepare it on 
delving into the relationship between drivers and a company 
undergoing a compliance review.
    Right now, FMCSA's process is that company drivers, that 
is, company employees only are subject to commercial driver 
license checks. The loophole, as we have identified it, is that 
companies undergoing compliance reviews, if they have bona fide 
contractors or if as you say it is more of a subterfuge, then 
they know that under current FMCSA process, those contractors, 
independent owner-operators aren't subject to license checks.
    That is specifically what happened in the BK Trucking case. 
Compliance review completed in February. Accident, tragic 
accident with fatality in March. Driver surfaced in the 
February review but didn't undergo a license check because he 
was listed by the company as an independent owner-operator.
    Mr. DeFazio. Now what do you mean surfaced, meaning the 
company has to list all of their company drivers and their 
contract drivers at the time of the compliance review?
    Mr. Scovel. Correct.
    Mr. DeFazio. Okay, so the name was known.
    Mr. Scovel. The name was known. He was known to be a driver 
for this company.
    Mr. DeFazio. So why, Administrator Hill, wouldn't we, if we 
knew that someone was contracting with someone who has such a 
bad driving record, somehow take that into account?
    Mr. Hill. I think that is the important point to start 
with. First of all, when our safety investigator went in, they 
have to establish a relationship that there is in fact an 
owner-operator. What we found was the investigator went into 
the company owner, and the owner said those people don't work 
for me. They are independent operators.
    We said, well, they are showing up on the profile. We 
looked at the lease agreements, and that was our flaw. We did 
not have the kind of detailed assessment of that lease 
agreement that really bound them together in that contractual 
relationship.
    As a result of that, we are now instituting training all 
across the Country for all of our safety investigators to 
better understand leases which is a part of the legacy of the 
old ICC that we really didn't follow through on as well when we 
moved into the safety environment.
    The second thing that we have done as a result of the BK 
Trucking issue is that we sample now. Any company with 20 
drivers or less, we are going to run CDLIS list checks or 
commercial driver's license checks on all of those drivers, 
period. What happened also is that in this case, this driver 
might not have been a part of our sampling protocol because we 
had such a small sample.
    We are just saying, look, 20 drivers or less, we are going 
to run all of them on the CDLIS check. We are not going to mess 
around with this.
    Mr. DeFazio. Okay. If there were more than 20, why wouldn't 
you run them all through that checklist?
    Mr. Hill. Based upon our data and the MCMIS file, 90 
percent of the carriers have 10 trucks or less, and so it is a 
function of workload frankly. I mean if you go into Schneider 
and you have 1,500 drivers, it is going to be a little tough to 
do all their drivers.
    Mr. DeFazio. Right. We know about problems with drivers 
that come to the attention of Federal inspectors, but what 
about the State data? As with the accident reporting, is it 
incomplete in terms of violations and suspensions within 
States?
    I mean is there a good national clearinghouse where any and 
all the States report any and all violations by any and all 
commercial drivers within their States, and you have a 
centralized record that your folks can refer to?
    Mr. Hill. There are two ways, and I would also certainly 
welcome the other two participants to communicate on this.
    Violations are recorded through our Motor Carrier 
Management Information System which is a compendium of all 
inspections done in the Country, and they have access to that 
at the roadside. That is assuming they have connectivity and 
can access it. So they have access to all the commercial 
vehicle violations on an inspection report.
    The second piece is if a driver is convicted of an offense, 
that goes to their CDL record, and so violations to the driving 
record are available through another program called CDLIS which 
is the driver, and all States can access that as well.
    Mr. DeFazio. All States are required to report to it.
    Mr. Hill. That is correct.
    Mr. DeFazio. Are they generally faithfully reporting on a 
timely basis?
    Mr. Hill. We do compliance reviews. That is a different 
term now.
    We go in and do a review of States on their CDL compliance 
with these issues, and we have found some problems. But it is 
getting much better because MCSIA when it was passed, it 
required States to do that. We have found several States to be 
in what we would consider substantial non-compliance which 
means they were in jeopardy of losing highway funding, not just 
MCSAP funding, and they rallied around the pole and became 
compliant.
    We are seeing improvement in that area, but it is still 
something that we are watching during a compliance review 
process. We do 15 States a year in that review process. So 
every three years, a State gets reviewed.
    Mr. DeFazio. Anybody else on the panel have any thoughts on 
the drivers, driver's licenses, or reporting offenses?
    Mr. Urquhart. Mr. Chairman?
    Mr. DeFazio. Yes.
    Mr. Urquhart. Since we have adopted the matrix on critical 
violations that impact a commercial driver's license holder's 
record, we have seen an increase in our State of masking and 
deferring, and generally that comes from our court system. 
Those drivers convince the court that there is a livelihood 
issue there, and so the reporting is interrupted well before it 
gets to the Department.
    Just to add to this discussion, aside from CDLIS, we are 
still dealing with commercial operators that aren't required to 
have commercial driver's licenses when they operate vehicles 
above 10,000. What we do see in our State from time to time is 
local law enforcement doesn't recognize what a commercial 
vehicle really is in accordance with the definition.
    So we do miss some of those things, and it is an 
educational thing both on the side of the courts and also with 
local law enforcement.
    Mr. DeFazio. To Mr. Vaughn, in California, you actually go 
out to each of the sites of the trucking companies and do on-
site inspections. I am curious_there is probably no way we 
could do it here, but I was looking at your roadside out-of-
service rates comparable to the Federal statistic.
    Then I am trying to figure out, well, if they are actually 
going to the sites, has that diminished the number of trucks 
that are found out of service that are California-registered or 
California-based versus those that are transiting your State? 
Is the fact that you have a comparable number due more to the 
transiting trucks or is there the same percentage of trucks 
that are domiciled in the State?
    Do you know what I am getting at? I am trying to figure 
since FMCSA doesn't come anywhere near that and you are doing 
it, I am wondering if it has any sort of preventive effect.
    Chief Vaughn. We believe that it does, but again we would 
have to go back and look at that statistically.
    Mr. DeFazio. We would have to do a regression analysis on 
it or something.
    Chief Vaughn. Yes. What we do know is we do not do 
compliance reviews in California. We do the BITs as you 
indicated, and we are out there once every 25 months. There are 
approximately 1.3 million vehicles that are registered in 
California and 1.8 that can pass through from out of the State.
    To determine that, we would have to go back and back some 
runs, but we can do that because that is an interesting point.
    Mr. DeFazio. Yes, I am just wondering if we can show that 
it has an impact. Then we would perhaps want to incent other 
States to do that somehow and help deal with it because I find 
it disturbing when you find that large of a percentage of 
trucks that until the moment they were stopped and looked at, 
they had a potential for a defect. It just seems like a high 
number.
    If I could just go back to the Administrator, a question 
about the BK issue that is not clear in anything I have 
received. It was in and out of compliance: it was rated 
unsatisfactory; it was conditional. it was satisfactory a 
number of times over a number of years. But then as soon as the 
fatal accident occurred, inspectors returned and they were then 
out of service.
    I am just curious. I mean, I am disturbed about that 
because it seems almost to represent what those of us who are 
familiar with the FAA have called the tombstone mentality which 
is we get there after the fact and we begin to apply extra 
scrutiny that wasn't applied before the fact. The unfortunate 
thing is someone died in the interim.
    Can you address that issue with that company: How someone 
moves back and forth so much; what sort of scrutiny or 
additional scrutiny is put on the conditional folks; how it was 
that they had a relatively recent inspection and they were not 
put out of service but then as soon as the fatal happened, they 
were put out of service?
    Mr. Hill. Okay. First of all, I would just say that when a 
carrier is rated as unsatisfactory, we are required then to put 
them out of service within 61 days if they are a freight 
carrier or 45 if they are hauling passengers or hazardous 
material.
    Therefore, the company has significant impetus to want to 
get that remedied. They are going to be very responsive to the 
requirements that we put on them because they know that they 
can't make any money and generate revenue while they are out of 
business. So they are going to be responsive.
    Then once they get into, as you just described, the 
conditional mode, then we put them into a categorization that 
we have, a group of people dedicated to do conditional carrier 
reviews. Frankly, Mr. Chairman, they are competing for the 
workload of those SafeStat A and B carriers that we are also 
required to do which you have read in the GAO report and other 
things as well.
    Let me address specifically the BK trucking and why that 
happened the way it did. When our investigators went in, in 
April, the owner of the company withheld information and said 
the owner-operators are not representative or a group, and 
therefore their data was not considered as a part of our safety 
assessment of that company. When we went back in and included 
those owner-operators, there were problems that began to filter 
into the process that were not in existence before.
    Mr. DeFazio. Right, but your normal procedure would not, 
for trucking companies of more than 20, include owner-
operators.
    Mr. Hill. Yes.
    Mr. DeFazio. It would not include them. You don't rate 
them.
    Mr. Hill. No, no. We rate anyone, anyone that we go in and 
do a compliance review for, regardless.
    Mr. DeFazio. Well, I thought that that was the issue here, 
that because they were owner-operators, that person's name had 
come to the attention of the inspector, but they said, okay, 
well, we won't look at that person because they are an owner-
operator.
    Mr. Hill. And so, the violations associated with those 
owner-operators were not held against the carrier.
    Mr. DeFazio. Right, but they weren't held by your policy 
before the accident, but they were after.
    Mr. Hill. That is because we established a relationship 
during the subsequent interview, and a more in-depth analysis 
of those lease agreements bound those two together which we did 
not find in the first. I told you earlier that we identified it 
as a deficiency.
    Mr. DeFazio. So there is a policy change here.
    Mr. Hill. It is really a training issue. I mean the policy 
didn't change. It is just that our people should have detected 
that lease arrangement and then made the motor carrier 
responsible for those owner-operators which they did not do in 
the first case.
    Mr. DeFazio. Okay. Basically, when the company owns the 
vehicles and is leasing them to someone, they would be now 
considered part of that company's record. If it was 
legitimately just a contractor, legitimate owner-operator, 
someone who is truly independent, they wouldn't be considered.
    Mr. Hill. That is correct. The owner-operator typically 
moves. They are going to work for either themselves, the owner-
operators, or they are going to be working under someone else's 
authority wherever they can get the loads. What typically 
happens is they work in these relationships with the motor 
carrier, and the motor carrier becomes responsible then for 
that owner-operator's driving and operational activities.
    Mr. DeFazio. They would then have an obligation. Do they 
have access to the database to determine whether this person 
has violations or suspensions elsewhere?
    Mr. Hill. Before they ever bring them on in that 
relationship, they are required to have a driver qualification 
file and do a records check. They are supposed to establish 
they have drug testing. They are supposed to monitor that 
driver's performance, absolutely. They become responsible for 
that driver.
    Mr. DeFazio. In this case, the owner had knowledge of this 
person's problems, but didn't take any action and allowed the 
person to operate.
    Mr. Hill. I would just say I don't believe that. They had 
done a driver qualification check on that license before the 
employer hired that owner-operator which they are required to 
do once a year. But after the person has a suspended license, 
the driver, the onus is on the driver to notify the employer or 
the carrier, that they have had an action taken, and that is a 
problem.
    Mr. DeFazio. The once a year, I assume is this a relatively 
routine inputting of the CDL number into a computer?
    Mr. Hill. They are supposed to do it. Actually, you get a 
motor vehicle check from the DMV.
    Mr. DeFazio. Right, so I mean it isn't costly. It is not 
particularly time-consuming.
    Mr. Hill. No. He did that, but this suspension occurred 
after he had done that initially.
    Mr. DeFazio. Right, but that is because of the once a year.
    Mr. Hill. That is correct.
    Mr. DeFazio. What I am getting at is maybe we want to 
require that this be done with more frequency rather than 
depending upon the driver to self-report.
    Mr. Hill. Well, I will tell you that we are working to try 
to provide access to our system to the motor carriers that will 
allow them to have much more ready access to driver 
information. I am hoping that later this year we are going to 
be able to explain to the industry how we are going to make 
this information available to them.
    We already have done it with law enforcement through 
something called our Driver Information Resource, and we have 
categorized all the driver violations. Instead of doing it by 
carrier, we have done it by the driver. So now there is going 
to be much more ready access, and we are going to try to roll 
that out to the industry next year.
    Mr. DeFazio. I would be very interested in that, and I 
would want to encourage and help facilitate that in any way 
possible. I think it would be very valuable information for the 
industry to have. I mean there are a few bad apples out there, 
and we want to get those off the road and not have them impugn 
the rest of the industry and the rest of the drivers. That is 
what we need to target.
    If there are any problems moving that forward, I would be 
very interested and I would like to help deal with that.
    I have some questions about basically the limited ability 
to pay issue, in the case of serious violations and how that 
works. I mean, what we consider to be limited ability to pay. 
Obviously, you don't want to take a true independent who has a 
violation and put him out of business for that.
    But where you have serious offenses, repeat offenses, how 
much does this ability to pay weigh in? If someone is so 
fragile that they can't pay a substantial fine for a serious 
violation, then you have to question what other corners might 
they be cutting.
    Mr. Hill. As you have referred to, there are statutory 
factors that we have to consider when we make fines make fines 
and penalties. Based on that general guidance, several years 
ago, the Agency drew up what they call the Uniform Fine 
Assessment Program. I am going to tell you that I am not real 
deep on this, but I will be glad to get with your staff and 
provide them the information.
    It is a factor. I don't think it would be characterized as 
being as seriously flawed as maybe your question would 
indicate, but it is a factor that we have to consider. What we 
could do is we could show your staff how that plays out and how 
that Uniform Fine Assessment works with all I think it is nine 
statutory factors that we have to consider, and some of them 
are subjective.
    Mr. DeFazio. All right, okay. All right, I think, although 
the staff may have an important question. Hold on one moment.
    Well, Chairman Oberstar had hoped to get back but has been 
unavoidably detained by other business, so he won't. He wanted 
to express his regrets and again wanted to thank the Captain 
because he wants to make sure that when he is going really fast 
on his bicycle downhill sometime and you guys clock him, he 
won't get in big trouble for it.
    Does anybody else on the panel have something that they 
weren't asked about that they really think would benefit the 
Committee, open-ended?
    Okay, all right. Well, with that, I again want to thank you 
for your patience and your time and your expertise, and we all 
hope to have a safer system in the future. Thank you.
    [Whereupon, at 4:50 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 36688.009
    
    [GRAPHIC] [TIFF OMITTED] 36688.010
    
    [GRAPHIC] [TIFF OMITTED] 36688.011
    
    [GRAPHIC] [TIFF OMITTED] 36688.012
    
    [GRAPHIC] [TIFF OMITTED] 36688.013
    
    [GRAPHIC] [TIFF OMITTED] 36688.014
    
    [GRAPHIC] [TIFF OMITTED] 36688.015
    
    [GRAPHIC] [TIFF OMITTED] 36688.016
    
    [GRAPHIC] [TIFF OMITTED] 36688.017
    
    [GRAPHIC] [TIFF OMITTED] 36688.018
    
    [GRAPHIC] [TIFF OMITTED] 36688.019
    
    [GRAPHIC] [TIFF OMITTED] 36688.020
    
    [GRAPHIC] [TIFF OMITTED] 36688.021
    
    [GRAPHIC] [TIFF OMITTED] 36688.022
    
    [GRAPHIC] [TIFF OMITTED] 36688.023
    
    [GRAPHIC] [TIFF OMITTED] 36688.024
    
    [GRAPHIC] [TIFF OMITTED] 36688.025
    
    [GRAPHIC] [TIFF OMITTED] 36688.026
    
    [GRAPHIC] [TIFF OMITTED] 36688.027
    
    [GRAPHIC] [TIFF OMITTED] 36688.028
    
    [GRAPHIC] [TIFF OMITTED] 36688.029
    
    [GRAPHIC] [TIFF OMITTED] 36688.030
    
    [GRAPHIC] [TIFF OMITTED] 36688.031
    
    [GRAPHIC] [TIFF OMITTED] 36688.032
    
    [GRAPHIC] [TIFF OMITTED] 36688.033
    
    [GRAPHIC] [TIFF OMITTED] 36688.034
    
    [GRAPHIC] [TIFF OMITTED] 36688.035
    
    [GRAPHIC] [TIFF OMITTED] 36688.036
    
    [GRAPHIC] [TIFF OMITTED] 36688.037
    
    [GRAPHIC] [TIFF OMITTED] 36688.038
    
    [GRAPHIC] [TIFF OMITTED] 36688.039
    
    [GRAPHIC] [TIFF OMITTED] 36688.040
    
    [GRAPHIC] [TIFF OMITTED] 36688.041
    
    [GRAPHIC] [TIFF OMITTED] 36688.042
    
    [GRAPHIC] [TIFF OMITTED] 36688.043
    
    [GRAPHIC] [TIFF OMITTED] 36688.044
    
    [GRAPHIC] [TIFF OMITTED] 36688.045
    
    [GRAPHIC] [TIFF OMITTED] 36688.046
    
    [GRAPHIC] [TIFF OMITTED] 36688.047
    
    [GRAPHIC] [TIFF OMITTED] 36688.048
    
    [GRAPHIC] [TIFF OMITTED] 36688.049
    
    [GRAPHIC] [TIFF OMITTED] 36688.050
    
    [GRAPHIC] [TIFF OMITTED] 36688.051
    
    [GRAPHIC] [TIFF OMITTED] 36688.052
    
    [GRAPHIC] [TIFF OMITTED] 36688.053
    
    [GRAPHIC] [TIFF OMITTED] 36688.054
    
    [GRAPHIC] [TIFF OMITTED] 36688.055
    
    [GRAPHIC] [TIFF OMITTED] 36688.056
    
    [GRAPHIC] [TIFF OMITTED] 36688.057
    
    [GRAPHIC] [TIFF OMITTED] 36688.058
    
    [GRAPHIC] [TIFF OMITTED] 36688.059
    
    [GRAPHIC] [TIFF OMITTED] 36688.060
    
    [GRAPHIC] [TIFF OMITTED] 36688.061
    
    [GRAPHIC] [TIFF OMITTED] 36688.062
    
    [GRAPHIC] [TIFF OMITTED] 36688.063
    
    [GRAPHIC] [TIFF OMITTED] 36688.064
    
    [GRAPHIC] [TIFF OMITTED] 36688.065
    
    [GRAPHIC] [TIFF OMITTED] 36688.066
    
    [GRAPHIC] [TIFF OMITTED] 36688.067
    
    [GRAPHIC] [TIFF OMITTED] 36688.068
    
    [GRAPHIC] [TIFF OMITTED] 36688.069
    
    [GRAPHIC] [TIFF OMITTED] 36688.070
    
    [GRAPHIC] [TIFF OMITTED] 36688.071
    
    [GRAPHIC] [TIFF OMITTED] 36688.072
    
    [GRAPHIC] [TIFF OMITTED] 36688.073
    
    [GRAPHIC] [TIFF OMITTED] 36688.074
    
    [GRAPHIC] [TIFF OMITTED] 36688.075
    
    [GRAPHIC] [TIFF OMITTED] 36688.076
    
    [GRAPHIC] [TIFF OMITTED] 36688.077
    
    [GRAPHIC] [TIFF OMITTED] 36688.078
    
    [GRAPHIC] [TIFF OMITTED] 36688.079
    
    [GRAPHIC] [TIFF OMITTED] 36688.080
    
    [GRAPHIC] [TIFF OMITTED] 36688.081
    
    [GRAPHIC] [TIFF OMITTED] 36688.082
    
    [GRAPHIC] [TIFF OMITTED] 36688.083
    
    [GRAPHIC] [TIFF OMITTED] 36688.084
    
    [GRAPHIC] [TIFF OMITTED] 36688.085
    
    [GRAPHIC] [TIFF OMITTED] 36688.086
    
    [GRAPHIC] [TIFF OMITTED] 36688.087
    
    [GRAPHIC] [TIFF OMITTED] 36688.088
    
    [GRAPHIC] [TIFF OMITTED] 36688.089
    
    [GRAPHIC] [TIFF OMITTED] 36688.090
    
    [GRAPHIC] [TIFF OMITTED] 36688.091
    
    [GRAPHIC] [TIFF OMITTED] 36688.092
    
    [GRAPHIC] [TIFF OMITTED] 36688.093
    
    [GRAPHIC] [TIFF OMITTED] 36688.094
    
    [GRAPHIC] [TIFF OMITTED] 36688.095
    
    [GRAPHIC] [TIFF OMITTED] 36688.096
    
    [GRAPHIC] [TIFF OMITTED] 36688.097
    
    [GRAPHIC] [TIFF OMITTED] 36688.098
    
    [GRAPHIC] [TIFF OMITTED] 36688.099
    
    [GRAPHIC] [TIFF OMITTED] 36688.100
    
    [GRAPHIC] [TIFF OMITTED] 36688.101
    
    [GRAPHIC] [TIFF OMITTED] 36688.102
    
    [GRAPHIC] [TIFF OMITTED] 36688.103
    
    [GRAPHIC] [TIFF OMITTED] 36688.104
    
    [GRAPHIC] [TIFF OMITTED] 36688.105
    
    [GRAPHIC] [TIFF OMITTED] 36688.106
    
    [GRAPHIC] [TIFF OMITTED] 36688.107
    
    [GRAPHIC] [TIFF OMITTED] 36688.108
    
    [GRAPHIC] [TIFF OMITTED] 36688.109
    
    [GRAPHIC] [TIFF OMITTED] 36688.110
    
    [GRAPHIC] [TIFF OMITTED] 36688.111
    
    [GRAPHIC] [TIFF OMITTED] 36688.112
    
    [GRAPHIC] [TIFF OMITTED] 36688.113
    
    [GRAPHIC] [TIFF OMITTED] 36688.114
    
    [GRAPHIC] [TIFF OMITTED] 36688.115
    
    [GRAPHIC] [TIFF OMITTED] 36688.116
    
    [GRAPHIC] [TIFF OMITTED] 36688.117
    
    [GRAPHIC] [TIFF OMITTED] 36688.118
    
    [GRAPHIC] [TIFF OMITTED] 36688.119
    
    [GRAPHIC] [TIFF OMITTED] 36688.120
    
    [GRAPHIC] [TIFF OMITTED] 36688.121
    
    [GRAPHIC] [TIFF OMITTED] 36688.122
    
    [GRAPHIC] [TIFF OMITTED] 36688.123
    
    [GRAPHIC] [TIFF OMITTED] 36688.124
    
    [GRAPHIC] [TIFF OMITTED] 36688.125
    
                                    

</pre></body></html>
